APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the Federal Circuit
(May 13, 2019)...................

la

Decision of the Trademark Trial
and Appeal Board (June 22, 2018)

9a

Order of the Tenth Circuit
(August 22, 2017)......

21a

Default Judgment
(August 10, 2017)

23a

Rehearing Order
Order of the Federal Circuit Denying Petition for
Rehearing (July 15, 2019)................................. 27a

App.la

OPINION OF THE FEDERAL CIRCUIT
(MAY 13, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES J. MAKSIMUK,
Appellant,
v.
CONNOR SPORT COURT INTERNATIONAL, LLC,
Appellee.
2019-1156
Appeal from the United States Patent and
Trademark Office, Trademark Trial and Appeal
Board in No. 92066311
Before: DYK, REYNA, and TARANTO,
Circuit Judges.
PER CURIAM
Connor Sport Court International, LLC holds
Registration No. 2,479,328 for the word mark SPORT
COURT associated with plastic, interlocking floor tiles
in International Class 21. That registration issued in
August 2001, and it has since become incontestable.
See 15 U.S.C. § 1065. James J. Maksimuk also sells
interlocking floor tiles through his company, CWF
Flooring, Inc. Mr. Maksimuk petitioned the Trademark

App.2a

Trial and Appeal Board for cancellation of Connor’s
’328 registration, arguing that the SPORT COURT
mark is generic. The parties filed several motions before
the Board, including Connor’s motion for summary
judgment based on claim preclusion. The Board
granted Connor’s motion and dismissed the cancella­
tion petition with prejudice, and Mr. Maksimuk now
appeals. We affirm.
I
In January 2017, Connor sued CWF Flooring in the
U.S. District Court for the District of Utah, alleging
(among other things) infringement of Connor’s SPORT
COURT trademark by one of the domain names for
CWF Flooring, “plasticsportcourttiles.com.” App. 3438. Before the district court, Mr. Maksimuk attempted
to appear on behalf of CWF Flooring, but the court
informed him that corporations must be represented
by counsel. App. 54-55, 57. CWF Flooring never hired
counsel. When CWF Flooring failed to respond to the
complaint, the court entered a default judgment against
it on August 10, 2017. App. 60-63. Referring to five
registrations, including the ’328 registration, the court
found that “ [t] he Sport Court Marks are distinctive
and not generic.” App. 61. The court enjoined CWF
Flooring from using the domain name at issue because
it is confusingly similar to Connor’s SPORT COURT
mark.
CWF Flooring timely appealed the default judg­
ment to the U.S. Court of Appeals for the Tenth
Circuit. App. 65. But several days later, the Tenth
Circuit abated CWF Flooring’s appeal because the
company was still not represented by counsel. App.
67-68. Mr. Maksimuk moved (among other things) to

App.3a
appear on behalf of CWF Flooring, but the Tenth Circuit
denied the motion. App. 70-71. When CWF Flooring
failed to hire counsel by the deadline, the Tenth
Circuit dismissed its appeal for failure to prosecute
on October 12, 2017. App. 73-74.
In June 2017, while the district-court proceedings
were still pending, Mr. Maksimuk petitioned the
Trademark Trial and Appeal Board to cancel Connor’s
’328 registration.! App. 77-81. Mr. Maksimuk argued
that the SPORT COURT mark is generic.2 Connor
moved for summary judgment in the fall of 2017, after
the district court had entered its judgment, arguing that
the district-court judgment precluded Mr. Maksimuk
from raising genericness in the Board proceeding. The
Board determined that claim preclusion barred Mr.
Maksimuk’s cancellation petition, granted Connor’s
motion for summary judgment, and dismissed the peti­
tion with prejudice on June 22, 2018. App. 11-17. Mr.
Maksimuk filed his notice of appeal with the Board
on July 5, 2018. After Mr. Maksimuk sent his appeal
to two of our sister circuits, we eventually received it
on October 25, 2018. We have exclusive jurisdiction

1 The cover sheet for the cancellation petition lists CWF Flooring
as the petitioner, but the petition itself lists Mr. Maksimuk as
the petitioner. The Board assumed that the cover sheet reflected a
clerical error, gave Mr. Maksimuk the benefit of the doubt that
he was the proper petitioner, and granted his motion to amend
the case caption accordingly. App. 10-11.
2 Mr. Maksimuk also argued that the SPORT COURT mark is
descriptive. But while incontestable marks may be challenged as
generic, they may not be challenged as merely descriptive. See
15 U.S.C. § 1064(l), (3). Therefore, the Board read Mr. Maksimuk’s
petition as properly raising only the genericness issue. App. 7.

App.4a
over appeals from the Board under 28 U.S.C. § 1295
(a)(4)(B).
II
The Lanham Act grants parties in cancellation
proceedings the right to appeal to this court: “[A]
party to a cancellation proceeding ... who is dissatisfied
with the decision of the Director or Trademark Trial
and Appeal BoardQ may appeal to the United States
Court of Appeals for the Federal Circuit....” 15 U.S.C.
§ 1071(a)(1). It further indicates how the dissatisfied
party must initiate the appeal:
When an appeal is taken to the United States
Court of Appeals for the Federal Circuit, the
appellant shall file in the United States
Patent and Trademark Office a written notice
of appeal directed to the Director, within
such time after the date of the decision from
which the appeal is taken as the Director
prescribes, but in no case less than 60 days
after that date.
Id. § 1071(a)(2). The U.S. Patent and Trademark Office
has promulgated a regulation interpreting the latter
statutory provision: “The notice of appeal. . . must be
filed with the Director no later than sixty-three (63)
days from the date of the final decision of the Trade­
mark Trial and Appeal Board or the Director.” 37
C.F.R. § 2.145(d).
Connor argues that we do not have jurisdiction
over Mr. Maksimuk’s appeal because it was not filed
within the 63 days prescribed by regulation. More
specifically, Connor argues that Mr. Maksimuk was
62 days late because his deadline to submit his appeal

App.5a
to this court was August 24, 2018, but we did not
receive it until October 25, 2018. But the statutory
and regulatory provisions quoted above say nothing
about when this court must receive the notice of appeal.
Rather, the statute says that the appellant must file
“a written notice of appeal directed to the Director”
by the Director-set deadline. 15 U.S.C. § 1071(a)(2)
(emphasis added). And the Director’s regulation repeats
that the notice of appeal “must be filed with the
Director” within 63 days. 37 C.F.R. § 2.145(d) (emphasis
added). Because Mr. Maksimuk filed his notice of appeal
only a couple of weeks after the Board issued its deci­
sion, he did what the relevant statutory and regulatory
provisions require.
The Federal Rules of Appellate Procedure do not
bar our review of Mr. Maksimuk’s appeal. The relevant
rule states that “[r]eview of an agency order is com­
menced by filing, within the time prescribed bv law.
a petition for review with the clerk of a court of
appeals authorized to review the agency order.” Fed.
R. App. P. 15(a)(1) (emphasis added). But Connor points
to no source of law, besides the already-discussed provi­
sions, that prescribes such a time limit. We hold that
we have jurisdiction to hear this appeal.3
3 Mr. Maksimuk appears to have violated this court’s own Rule
15(a)(1):
To appeal a decision of the ... Trademark Trial and
Appeal Board ... under 15 U.S.C. § 1071(a), the appel­
lant must file in the Patent and Trademark Office a
notice of appeal within the time prescribed by law.
Notwithstanding Rule 25(b)(1), the appellant must
simultaneously send to the clerk of court one paper
copy of the notice and pay the fee set forth in Federal
Circuit Rule 52.

App.6a
III
We turn now to the claim-preclusion issue. Claim
preclusion, historically known as res judicata, prevents
a party from litigating a matter that should have
been litigated in an earlier proceeding. See generally
18 Charles Alan Wright et al., Federal Practice and
Procedure § 4402 (3d ed. 2018). Claim preclusion applies
when three elements are met: “(l) there is identity of
parties (or their privies); (2) there has been an earlier
final judgment on the merits of a claim; and (3) the
second claim is based on the same set of transactional
facts as the first.” Nasalok Coating Corp. v. Nylok
Corp., 522 F.3d 1320, 1324 (Fed. Cir. 2008) (quoting
Jet, Inc. v. Sewage Aeration Systems, 223 F.3d 1360,
1362 (Fed. Cir. 2000)). When wielded against the defen­
dant from the first action, claim preclusion applies “only
if (l) the claim or defense asserted in the second action
was a compulsory counterclaim that the defendant
failed to assert in the first action, or (2) the claim or
defense represents what is essentially a collateral
attack on the first judgment.” Id. (citing Baker v. Gold
Seal Liquors, Inc., 417 U.S. 467, 469 n.l (1974)). Claim
preclusion can apply against the defendant even if
the first judgment was a default judgment. Id. at
1329-30 (collecting cases). We review de novo the
Board’s determination that claim preclusion bars Mr.
Fed. Cir. R. 15(a)(1) (emphasis added). But our rules are not
jurisdictional. Cf. Hamer v. Neighborhood Hous. Servs. of Chi.,
138 S. Ct. 13, 20 n.9 (2017) (“In cases not involving the timebound
transfer of adjudicatory authority from one Article III court to
another, we have additionally applied a dear-statement rule: A
rule is jurisdictional if the Legislature clearly states that a threshold
limitation on a statute’s scope shall count as jurisdictional.”
(emphasis added) (cleaned up)). In the circumstances in this
case, we proceed to consider the correctness of the Board’s decision.

App.7a

Maksimuk’s cancellation petition and its grant of
summary judgment on that basis. See id. at 1323.
We conclude that the Board did not err in deter­
mining that claim preclusion bars Mr. Maksimuk’s
cancellation petition. The Board rightly determined,
on the facts here, that Mr. Maksimuk is in privity
with CWF Flooring because he is its founder, owner,
and CEO and he controlled the earlier district-court
litigation. App. 12-13 (citing Kreager v. Gen. Elec.
Co., 497 F.2d 468, 472 (2d Cir. 1974)). The Board also
correctly determined that there was an earlier final
judgment on the merits of a claim, i.e., the district
court’s default judgment. App. 14. And the Board
properly concluded that the cancellation petition
amounted to a collateral attack on the district court’s
judgment, which specifically stated that Connor’s
SPORT COURT mark is “distinctive and not generic.”
App. 15 (quoting App. 61). Therefore, we agree with the
Board that the elements of claim preclusion are met
here.
We see no special circumstances demanding a
departure from the generally applicable standards of
claim preclusion. Mr. Maksimuk argues that the
Board’s claim-preclusion analysis is flawed because
he was denied due process during the district-court
proceedings when he was not allowed to appear on CWF
Flooring’s behalf. But besides making unfounded
accusations that the district court was biased against
him, Mr. Maksimuk has not explained to us why he did
not have an opportunity to raise his due-process con­
cerns before the district court or the Tenth Circuit.
Regardless, there is no due-process violation.
The federal courts have maintained for generations
that corporations must be represented by counsel. E.g.,

App.8a
Rowland v. Cal. Men’s Colony, Unit II Men’s Advisory
Council, 506 U.S. 194, 201-02 (1993) (“It has been the
law for the better part of two centuries . . . that a
corporation may appear in the federal courts only
through licensed counsel.” (citing Osborn v. Bank of
the United States, 22 U.S. (9 Wheat.) 738, 829 (1824)));
Tal v. Hogan, 453 F.3d 1244, 1254 & n.8 (10th Cir.
2006). Both the district court and the Tenth Circuit
timely informed Mr. Maksimuk of the longstanding
rule that corporations must be represented by counsel.
App. 54-55, 57, 67-68. Mr. Maksimuk cannot complain
that he was denied a full and fair opportunity to liti­
gate his claim because of a technicality he did not
know about. Accordingly, we discern no denial of due
process in the district-court proceedings that would
make claim preclusion inappropriate here.
IV
We have considered the parties’ remaining argu­
ments but find them unpersuasive. We therefore
affirm the decision of the Trademark Trial and Appeal
Board.
No costs.
AFFIRMED

App.9a

DECISION OF THE TRADEMARK
TRIAL AND APPEAL BOARD
(JUNE 22, 2018)
UNITED STATES PATENT AND
TRADEMARK OFFICE
Trademark Trial and Appeal Board
P.O. Box 1451
Alexandria, VA 22313-1451
General Contact Number: 571-272-8500
JAMES J. MAKSIMUK
(by correction from CWF Flooring, Inc.)
v.
CONNOR SPORT COURT INTERNATIONAL, LLC
Cancellation No. 92066311
Before: KUHLKE, BERGSMAN and GOODMAN,
Administrative Trademark Judges.
By the Board:
On June 13, 2017, Petitioner filed a petition to
cancel Respondent’s Registration No. 2479328, issued
August 21, 2001 (renewed), for the mark SPORT
COURT in typed form for “plastic interlocking floor
tiles” in International Class 21, on grounds that the
mark is generic and, if not generic, then merely
descriptive.! Because the petition to cancel was filed
1 On May 22, 2017, Mr. Maksimuk also filed a petition to cancel
Respondent’s Registration Nos. 1100976 and 1155586. In a

App.lOa
more than five years after the issuance of the
registration at issue, the ground that the mark is
merely descriptive is unavailable. See Trademark Act
Section 14(3), 15 U.S.C. § 1064(3). Accordingly, we
treat the petition to cancel as seeking cancellation
solely on the ground of genericness.
The following motions are pending herein: (l)
Respondent’s renewed motion (filed November 29, 2017)
for summary judgment on the ground of res judicata
based on previous litigation styled Connor Sport Court
Inti, LLC, v. CWF Flooring, Inc., Case No. 2:17-cv00042, filed in United States District Court for the
District of Utah (10 TTABVUE);2 (2) Petitioner’s motion
(filed December 10, 2017) to correct the caption of
this proceeding (13 TTABVUE); and (3) Respondent’s
motion (filed March 2, 2018, 18 TTABVUE) to strike
Petitioner’s February 7, 2018 submission (17 TTAB­
VUE) on the ground that it is an impermissible
surreply in connection with the renewed motion for
summary judgment.

June 6, 2017 order, the Board stated that the May 22 filing was
not accompanied by the required filing fee and therefore would
receive no consideration.
2 Respondent filed a first motion for summary judgment on the
ground of res judicata on October 17, 2Q17 (5 TTABVUE). The
Board, in an October 25, 2017 order (6 TTABVUE), denied that
motion without prejudice because it was based on an unpleaded
defense. Respondent then filed a motion for leave to file an
amended answer on October 30, 2017 (7 TTABVUE), which the
Board granted as conceded in a November 28, 2017 order (9
TTABVUE).

r

App.lla

I.

Motion to strike denied

Trademark Rule 2.127(a) allows a nonmovant one
brief in response to a motion. Trademark Rule 2.127
(e)(l) allows a nonmovant until thirty days from the
date of service of the brief in support of the motion for
summary judgment to file a brief in response thereto.
Based on the foregoing, Petitioner was allowed until
December 28, 2017 to file one brief in response to
Respondent’s renewed motion for summary judgment.
After the November 29, 2017 filing of the renewed
motion for summary judgment, the parties filed the
following relevant documents herein:
•

13 TTABVUE: Petitioner’s motion
(filed December 10, 2017) to amend the caption
of this proceeding;

•

14 TTABVUE: Petitioner’s response (filed
December 14, 2017) to the Board’s December 8,
2017 suspension order (12 TTABVUE);

•

16 TTABVUE: Respondent’s combined reply
brief (filed February 2, 2018) in support of the
motion for summary judgment and brief in
response to the motion to amend the caption;
and

•

17 TTABVUE: Petitioner’s brief (filed February
7, 2018) in response to the renewed motion for
summary judgment.

In a one-page response to the Board’s December
8, 2017 suspension order (14 TTABVUE), Petitioner,
in the context of seeking action on the motion to
amend the caption, timely argued in opposition to the

App.l2a
motion for summary judgment^ but did not otherwise
respond to the motion.
The Board, in a January 13, 2018 order (15
TTABVUE), indicated that it would consider Peti­
tioner’s response to the suspension, notwithstanding the
lack of proof of service thereof, and set time for
remaining permissible briefing of the pending motions.
Under Rule 2.127(a), Petitioner was limited to filing
a reply brief in connection with the motion to amend
the caption. Nonetheless, Petitioner filed a brief in
response to the motion for summary judgment (1.7
TTABVUE), instead of a reply brief in support of the
motion to amend the caption.
Because Petitioner’s brief in response to the
motion for summary judgment was filed more than
thirty days after the service of the motion for summary
judgment, that brief in response is untimely. Although
the brief in response does not include a showing that
Petitioner’s failure to timely file it was caused by ex­
cusable neglect (see Fed. R. Civ. P. 6(b)(1)(b); Pioneer
Inv. Servs. Co. v. Brunswick Assocs. L.P., 507 U.S.
380 (1993); Pumpkin, Ltd. v. Seed Corps, 43 USPQ2d
1582 (TTAB 1997)), we elect to exercise our discretion
to consider it. Based on the foregoing, the motion to
strike is denied.
II. Motion to amend the caption
The ESTTA cover form for the petition to cancel
identifies CWF Flooring, Inc. (“CWF”) as Petitioner

3 In particular, Petitioner contends that res judicata is inapplicable
because CWF Flooring and James J. Maksimuk are different
entities.

App.l3a

(l TTABVUE l).4 Because the text of the petition to
cancel states that “[t]he PETITIONER is James J.
Maksimuk” (l TTABVUE 2), Petitioner asks that the
caption be corrected to identify Mr. Maksimuk as
plaintiff.
In opposition, Respondent contends that the pro­
posed correction is futile because correcting the cap­
tion will not prevent application of the doctrine of res
judicata in this case because Mr. Maksimuk was in
privity with CWF Flooring, Inc. when the district
court entered its final judgment (16 TTABVUE 2-3).
When the plaintiff in a Board inter partes
proceeding misidentifies itself in the complaint, if the
plaintiff can establish to the Board’s satisfaction that
this misidentification was merely a non-substantive
mistake, the Board may allow amendment of the
complaint, pursuant to Fed. R. Civ. P. 15(a), to correct
the misidentification. See Mason Eng. & Design Corp.
v. Mateson Chem. Corp., 225 USPQ 956, 957 n.3 (TTAB
1985) (deeming pleadings amended to recite opposer’s
correct name); TBMP § 512.04 (June 2017).
Whether this proceeding is barred by the doctrine
of res judicata is not at issue in the motion to correct
the caption of this proceeding. Because the text of the
petition to cancel makes clear that Mr. Maksimuk is
the intended Petitioner herein, we treat Petitioner’s
identification of CWF Flooring, Inc. in the ESTTA
cover form5 as a clerical error. Petitioner’s motion to
4 Petitioner submitted a filing fee for a single petitioner in a
single class. See Trademark Rule 2.6(a)(l6)(ii).
5 Contrary to Petitioner’s apparent belief, the Board does not
enter information in ESTTA cover forms. The filing party enters
that information.

t

App.l4a

correct the caption of this proceeding is therefore
granted, and the caption of this proceeding is hereby
amended to identify Mr. Maksimuk as petitioner and
party plaintiff.
III. Motion for Summary Judgment Granted
Under the doctrine of res judicata (or claim pre­
clusion), the entry of a final judgment “on the merits”
of a claim (i.e., cause of action) in a proceeding serves
to preclude the relitigation of the same claim in a
subsequent proceeding between the parties or their
privies, even in those cases where the prior judgment
was the result of a default or consent. See Lawlor v.
National Screen Service Corp., 349 U.S. 322 (1955);
Chromalloy Am. Corp. v. Kenneth Gordon, Ltd., 736
F.2d 694, 222 USPQ 187 (Fed. Cir. 1984); Flowers
Indus., Inc. v. Interstate Brands Corp., 5 USPQ,2d 1580
(TTAB 1987). More specifically, in the circumstances
presented by the case at hand, “[c]laim preclusion
refers to the effect of a judgment in foreclosing litiga­
tion of a matter that never has been litigated,
because of a determination that it should have been
advanced in an earlier suit. Claim preclusion there­
fore encompasses the law of merger and bar.” Migra
v. Warren City School Dist. Bd. ofEduc., 465 U.S. 75,
77 n.l (1984); Nasalok Coating Corp. v. Nylok Corp.,
522 F.2d 1320, 86 USPQ2d 1369, 1371 (Fed. Cir.
2008).
Regarding whether the parties in this proceeding
and the parties in the prior civil action are legally
equivalent, we find initially that there is no genuine
dispute that Respondent was the plaintiff in the earlier
civil action and that Mr. Maksimuk was in privity
with CWF when judgment was entered in the civil

App.l5a
action. The basis for applying preclusion against him
herein rests on his being the founder (16 TTABVUE
7), “owner” (10 TTABVUE 42) and “CEO” (10 TTAB­
VUE 46 and 56) of CWF, the defendant in the prior
civil action. See e.g., Kraeger v. General Electric Co.,
497 F.2d 468, 472 (2d. Cir. 1974) (president and sole
shareholder of a corporation bound by the corporation’s
defeat in an action that he effectively controlled);
Vitronics Corp. v. Conceptronic, Inc., 27 USPQ2d 1046,
1049 (D.N.H. 1992) (founder and CEO of corporation
in privity with corporation); John W. Carson Founda­
tion v. Toilets.com Inc., 94 USPQ2d 1942, 1947
(TTAB 2010) (president and sole owner of corporation
in privity with corporation).
Section 39 of the Restatement (Second) of Judg­
ments (1982) states the applicable black-letter law:
“A person who is not a party of an action but who
controls or substantially participates in the control of
the presentation on behalf of a party is bound by the
determination of issues decided as though he were a
party.” See also 18A C. Wright, A. Miller & E. Cooper,
Fed. Prac. & Proc. Juris. § 4451 (April 2018 update).
The record herein indicates that Mr. Maksimuk fully
controlled CWF’s case in the civil action6 by

6 The Board notes the following procedural history in the civil
action:
•

Following receipt of the service copy of the complaint in
the civil action (10 TTABVUE 14-33), Mr. Maksimuk,
appearing pro se on behalf of CWF, sent an email on
April 27, 2017 to the magistrate judge in the United
States District Court for the District of Utah in which
CWF requested an extension of time to answer (10
TTABVUE 35-36).

■I.

(*

App.l6a

•

Mr. Maksimuk, however, was informed in an April 27,
2017 response from the magistrate judge’s law clerk
that any such request must be in the form of a motion
filed on the docket by an attorney (10 TTABVUE 35).

•

In a June 6, 2017 notice from the district court, CWF
and Petitioner were advised that CWF, as a corporation,
“cannot appear except through counsel” and that Mr.
Maksimuk was “previously notified by Magistrate Judge
Paul M. Warner to that effect. Absent proper appearance
through counsel, the court cannot deal with the Motion
for Stay of Proceedings, forwarded to chambers via e-mail
from James Maksimuk on June 6, 2017.” (10 TTABVUE
38).

»

After CWF failed to retain an attorney to represent it in
the civil action in accordance with the district court’s
local rules and failed to file an answer or other response
to the complaint, the district court entered default
judgment against CWF in an August 10, 2017 decision
(10 TTABVUE 41-44, 17 TTABVUE 14-17). In that deci­
sion, CWF
was permanently enjoined from using the plastics
portcourttiles.com domain name in connection
with the marketing or sale of flooring products
and services, including redirecting visitors from
plasticsportcourttiles.com to other internet domains
having websites marketing or selling flooring
products or services ... [and] from using an internet
domain name containing the term ‘sport court,’
‘sports court,’ ‘sport courts,’ or any variation
thereof in connection with the marketing or sale
of flooring products and services, including •
redirecting visitors from such a domain to other
internet domains having websites marketing or
selling flooring products Or services.

(10 TTABVUE 43).
Mr. Maksimuk, again appearing pro soon behalf of CWF, appealed
that default judgment to the United States Court of Appeals for
the Tenth Circuit, but that appeal was dismissed on October 12,

App.l7a
attempting to represent CWF pro se therein in con­
travention of local rules. In view thereof, we find that
there is no genuine dispute that privity exists
between Mr. Maksimuk, Petitioner in this proceeding,
and CWF, the defendant in the prior civil action, for
res judicata purposes. Accordingly, there is no genuine
dispute that the parties in this case and the civil
action are legal equivalents.
Further, there is no genuine dispute of material
fact that there was a final judgment on the merits of
a claim in the civil action. The United States District
Court for the District of Utah entered default judgment
in the civil action after CWF refused to hire an attorney.
In its decision entering such judgment, the district
court found that “the Sport Court marks [including
Respondent’s involved Registration No. 2479328] are
distinctive and not generic” and that CWF’s use of
the domain plasticsportcourttiles.com infringed
Respondent’s SPORT COURT marks (10 TTABVUE 4243). Further, the United States Court of Appeals for
the Tenth Circuit dismissed CWF’s appeal of that
default judgment after CWF failed to hire an attorney
to appear on its behalf. Although Petitioner asserts
in his brief in response to the motion for summary
judgment that he intends to file a petition for writ of
certiorari with the Supreme Court in this case (17
TTABVUE 5), his time for so filing had lapsed by the
time he filed the brief in response. See Sup Ct. R.
13.1 (a petition for writ of certiorari is timely when it
is filed within 90 days after entry of a judgment by a
United States Court of Appeals). The record herein
does not indicate that any such petition was filed.
2017, after CWF failed to retain an attorney to represent it in
that appeal (10 TTABVUE 54).

App.l8a

We now consider whether the cancellation pro­
ceeding is based on the same set of transactional facts
as the civil action. Where, as in this case, a party
seeks to preclude a defendant in the first action from
bringing certain claims as plaintiff in a second action,
the rules of defendant preclusion apply. See Nasalok
Coating Corp. v. Nylok Corp., 522 F.3d 1320, 86
USPQ2d 1369, 1372 (Fed. Cir. 2008). A defendant in
the first action is precluded from bringing such claims
in a subsequent proceeding only if: (l) the claim or
defense asserted in the second action was a compulsory
counterclaim that the defendant failed to assert in
the first action; or (2) the claim or defense represents
what is essentially a collateral attack on the first
judgment. Id.
Regarding the first basis for applying defendant
claim preclusion, Trademark Act Section 37, 15 U.S.C.
§ 1119, allows a trademark infringement defendant
to assert a counterclaim to cancel the registration.
However, our primary reviewing court has determined
that a claim that a trademark registration is invalid
is not a compulsory counterclaim to a claim of
trademark infringement brought in a federal district
court.? See id., 86 USPQ2d at 1373.
We turn then to the second basis for applying
claim preclusion against defendants—where the effect
of the later action is to collaterally attack the judgment
? By contrast, in Board opposition and cancellation proceedings,
a defense attacking the validity of a registration pleaded in a
cancellation action is a compulsory counterclaim if grounds for
the counterclaim existed at the time when the answer is filed or
are learned during the course of the proceedings. See Trademark
Rules 2.106(b)(3) and 2.114(b)(3); Jive Software, Inc. v. Jive
Commc’ns, Inc., 125 USPQ2d 1175, 1177 (TTAB 2017).

App.l9a

of the first action. Here, the district court’s default
judgment in the infringement action included the
determination that Respondent’s “Sport Court Marks
are distinctive and not generic.” 10 TTABVUE 41-42.
Allowing Petitioner to challenge the validity of the
involved registration for the mark SPORT COURT
for “plastic interlocking floor tiles” upon which the
prior judgment was based on the ground of generic­
ness would allow Petitioner to collaterally attack the
judgment of the first action.
Further, Section 18(2) of the Restatement (Second)
of Judgments makes clear that a defense that could
have been interposed cannot later be used to attack
the judgment of the first action. Although Petitioner
contends that he was denied due process because he
was not allowed to participate in the civil action, the
record clearly indicates that the default judgment
was entered by the district court and the appeal was
dismissed by the court of appeals as a direct result of
CWF’s refusal to hire an attorney despite multiple
warnings from the district court and the court of
appeals. CWF and Mr. Maksimuk were repeatedly
advised by the district court of the requirement that
CWF hire an attorney in the civil action (10 TTABVUE
35, 38, and 42; 17 TTABVUE 14-17). Likewise, CWF
and Mr. Maksimuk were repeatedly advised that CWF
must be represented by an attorney in CWF’s appeal
before the United States Court of Appeals for the
Tenth Circuit (10 TTABVUE 48, 51-52 and 54). See Tal
v. Hogan, 453 F.3d 1244, 1254 (10th Cir. 2006) (“It
has been our longstanding rule that a corporation must
be represented by an attorney to appear in federal
court.”). Notwithstanding this repeated advice, CWF
chose not to hire an attorney in the civil action and

App.20a
was thus not permitted to file submissions or appear
in court therein.
Bearing in mind that the petition to cancel was
filed on June 13, 2017, after entry of default and
prior to entry of default judgment in the civil action,8
there is no genuine dispute that the allegations set
forth in the petition to cancel existed at the time of
the civil action and could have been-and should have
been-raised as a counterclaim in the civil action. See
Urock Network, LLC v. Sulpasso, 115 USPQ2d 1409,
1412 (TTAB 2015). In sum, there is no genuine dis­
pute of material fact that the requisite elements of
res judicata have been satisfied.
Based on the foregoing, Respondent’s motion for
summary judgment is hereby granted. The petition to
cancel is dismissed with prejudice.

8 Filing the petition to cancel instead of pursuing the counterclaim
in the civil action was essentially an attempt to raise that claim
in a forum where Petitioner could appear without an attorney.

■>

App.21a

ORDER OF THE TENTH CIRCUIT
(AUGUST 22, 2017)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
CONNOR SPORT COURT INTERNATIONAL, LLC,
a Delaware limited liability company,
Plaintiff-Appellee,
v.
CWF FLOORING, INC., d/b/a
plasticsportcourttiIes.com, d/b/a sporttiles.pro, a
California corporation,
Defendant-Appellant.
No. 17-4130
This matter is before the court sua sponte upon
review of the district court docket. Corporate entities
may not appear pro se in this court and must be
represented by counsel. Tal v. Hogan, 453 F.3d 1244,
1254 (10th Cir. 2006). Because Appellant CWF Flooring,
Inc. does not have counsel at this time, proceedings
in this appeal are ABATED.
Within 21 days from the date of this order, an
attorney must file an entry of appearance on behalf
of Appellant, along with a motion to lift the abatement.
The appeal will be dismissed for failure to prosecute
if an entry of appearance and motion to lift the abate-

App.22a
ment are not filed by the deadline. See 10th Cir. R.
42.1.
Unless and until an entry of appearance has been
filed on behalf of Appellant, any filings shall be
served on CWF Flooring, Inc. at the following address:
CWF Flooring, Inc.
c/o James J. Maksimuk, CEO
38325 6th Street East
Palmdale, CA 93550
Entered for the Court
Is/ Elisabeth A. Shumaker
Clerk
by: Lindy Lucero Schaible
Counsel to the Clerk

App.23a

DEFAULT JUDGMENT
(AUGUST 10, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF UTAH, CENTRAL DIVISION
CONNOR SPORT COURT INTERNATIONAL, LLC,
a Delaware limited liability company,
Plaintiffs,
v.
CWF FLOORING, INC., d/b/a
plasticsportcourttiles.com, d/b/a sporttiles.pro, a
California corporation,
Defendant.
Case No. 2:17-cv-00042-BSJ
Before: Bruce S. Jenkins,
United States District Judge
This matter comes before the Court on Plaintiff
Connor Sport Court International, LLC’s (“CSCI”)
Motion for Entry of Default Judgment against
Defendant CWF Flooring, Inc. d/b/a plasticsportcourt
tiles.com d/b/a sporttiles.pro (“CWF”) under Federal
Rule of Civil Procedure 55(b)(2). After considering the
arguments and authorities submitted by the Plaintiff,
the Court finds as follows:

App.24a

1. The Complaint, including attachments, and an
original summons were properly served on CWF on
February 9, 2017.
2. This Court has personal jurisdiction over CWF
and subject matter jurisdiction over the matters in
controversy between CSCI and CWF. Venue in this
judicial district is proper.
3. CSCI manufactures and sells flooring products
and flooring installation services. CSCI owns several
trademarks in connection with its products and services,
all of which are valid, subsisting, and incontestable
pursuant to 15 U.S.C. § 1065 (collectively, the “Sport
Court Marks”):
Registration No.

Registration
Date

Trademark

1,100,976

August 29, 1978

SPORT COURT

1,155,586

May 26, 1981

SPORT COURT

1,727,818

November 10,
1981

SPORT COURT

1,177,220

October 27, 1992 SPORT COURT

2,479,328

May 29, 2001

SPORT COURT

4. The Sport Court Marks are distinctive and not
generic.
5. CWF markets and sells flooring for residential
and commercial use and is a direct competitor to CSCI.
6. CWF owns and maintains the domain plastic
sportcourttiles.com, which redirects internet users to

.!

App.25a
CWF’s commercial web site selling flooring products
at sporttiles.pro.
7. On April 27, 2017, in response to CWF’s owner
—who is not an attorney—asking for additional time
to respond to the Complaint, the magistrate judge
informed CWF that the company cannot proceed pro se
and needed to be represented by an attorney in this
case.
8. On May 18, 2017, entry of default was recorded
against CWF due to its failure to answer or otherwise
respond to the Complaint.
9. On June 6, 2017, in response to a motion to
stay proceedings submitted by CWF’s owner, the Court
informed CWF that the company cannot appear except
through counsel.
10. On June 22, 2017, during a hearing on CSCI’s
Motion for Entry of Default Judgment, the Court
informed CWF’s owner that the company needed to be
represented by an attorney and gave CWF until July
25, 2017 to find local counsel.
11. As of August 4, 2017, CWF has not retained
an attorney to represent it in this case in accordance
with the local rules for the United States District
Court for the District of Utah, nor has it answered or
otherwise responded to the Complaint.
12. As stated on the record by counsel for Plaintiff,
all other forms of relief in the way of damages are
withdrawn.
Therefore, it is ADJUDGED that:
CWF’s actions infringe CSCI’s Sport Court Marks
in violation of 15 U.S.C. § 1114 because the plastic

■jr*

HP
ip!

App.26a

sportcourttiles.com domain is confusingly similar to
the SPORT COURT marks.
CWF’s actions infringe CSCI’s common law
trademark rights in the Sport Court Marks in violation
of 15 U.S.C. § 1125 because the plasticsportcourttiles.
com domain is confusingly similar to the SPORT
COURT marks.
Furthermore, it is ORDERED that:
CWF is hereby permanently enjoined from using
the plasticsportcourttiles.com domain name in con­
nection with the marketing or sale of flooring pro­
ducts and services, including redirecting visitors from
plasticsportcourttiles.com to other internet domains
having websites marketing or selling flooring pro­
ducts or services.
CWF is hereby permanently enjoined from using
an internet domain name containing the terms “sport
court,” “sports court,” “sport courts,” or any variation
thereof in connection with the marketing or sale of
flooring products and services, including redirecting
visitors from such a domain to other internet domains
having websites marketing or selling flooring products
or services.

(V
n
, t

CSCI shall file a bill of costs and a motion for
attorney’s fees in accordance with DUCivR 54-2.
The Court shall retain jurisdiction of this matter
for purposes of the interpretation, amendment, or
enforcement.
/s/ Honorable Bruce S. Jenkins
United States District Judge
Dated: August 10th, 2017

%

App.27a

ORDER OF THE FEDERAL CIRCUIT
DENYING PETITION FOR REHEARING
(JULY 15, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES J. MAKSIMUK,
Appellant,
v.
CONNOR SPORT COURT INTERNATIONAL, LLC,
Appellee.
2019-1156
Appeal from the United States Patent and
Trademark Office, Trademark Trial and Appeal
Board in No. 92066311
Before: PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
PER CURIAM
Appellant James J. Maksimuk filed a petition
for rehearing en banc. The petition was first referred
as a petition for rehearing to the panel that heard
the appeal, and thereafter the petition for rehearing

.*/
(

App.28a

en Banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en Banc is denied.
The mandate of the court will issue on July 22,
2019.
FOR THE COURT
/s/ Peter R. Marksteiner
Clerk of Court
July 15, 2019
Date

/
i

?

